The U.S. International Trade Commission is an independent, nonpartisan, quasi-judicial federal agency
that provides trade expertise to both the legislative and executive branches of government, determines the
impact of imports on U.S. industries, and directs actions against certain unfair trade practices, such as
patent, trademark, and copyright infringement. USITC analysts and economists investigate and publish
reports on U.S. industries and the global trends that affect them. The agency also maintains and publishes
the Harmonized Tariff Schedule of the United States.




                                             Commissioners
                                        Deanna Tanner Okun, Chairman
                                        Irving A. Williamson, Vice Chairman
                                        Charlotte R. Lane
                                        Daniel R. Pearson
                                        Shara L. Aranoff
                                        Dean A. Pinkert
Chairman




              UNITED STATES INTERNATIONAL TRADE COMMISSION

                                  WASHINGTON, DC 20436

                                       November 30, 2011




Message from the Chairman

In accordance with the Inspector General Act of 1978, as amended, 5 U.S.C. App. 3 (the IG Act),
the U.S. International Trade Commission (USITC or Commission) hereby transmits the
Semiannual Report of the USITC Inspector General for the period April 1, 2011 to September 30,
2011.

The Commission appreciates the work done by the Office of Inspector General in assuring the
effectiveness, efficiency, and integrity of Commission programs and operations. Inspector
General Philip M. Heneghan and his staff continue to provide invaluable assistance to the
Commission. We look forward to continuing to work with Mr. Heneghan as we address the
issues raised in his report.

The Inspector General’s Semiannual Report identifies the top management and performance
challenges in FY 2011 that require significant attention from the USITC. The Commission
concurs with the critical challenges identified by the Inspector General. We continue our efforts
to address these challenges to ensure that our internal operations are well managed. We believe
that the corrective action plans we have in place will answer the challenges identified by the
Inspector General, and we already have completed a number of these corrective actions.

The actions we are taking to address our challenges are summarized in the following three
sections: (1) internal control, (2) financial management, and (3) information technology security.
I will then address the status of actions on Inspector General Recommendations.




                                                1
Management and Performance Challenges

1.     Internal Control

Transforming the management culture of the agency is a top priority to ensure that the USITC
can efficiently meet its objectives in an era of government-wide budgetary limitations. In
response to these challenges, the Commission has restructured its management with the creation
of the Executive Management Committee and its subcommittees and has called upon its senior
managers to work collectively and strategically to manage the agency’s human, financial, and
information resources. In addition, the Commission has initiated process mapping in several
operations, which will enable the agency to document its processes and to explore whether we
can make them more efficient.

The Commission added a new performance element – agency-wide management – to the
performance plan of every member of the Senior Executive Service (SES). The multi-year effort
to transform the management structure and culture of the Commission requires SES to be held
accountable for the management of the agency as a whole. The SES and other supervisors must
verify that assignments are being completed and procedures are being followed, whether that is
in the operational or administrative areas of the Commission. Strong internal controls will
enable managers to monitor progress.

2.     Financial Management

The Commission’s FY 2011 financial statement audit resulted in an unqualified opinion. This
represents substantial progress by the Commission in its financial management remediation
efforts over the last two years. The independent auditor issued a disclaimer of opinion on the
Commission’s FY 2009 financial statement and a qualified opinion on the Commission’s FY
2010 financial statement. Although the agency has made substantial progress, full
implementation of our corrective actions is ongoing.

During the reporting period, the Commission amended its strategic human capital plan to
establish a new Office of the Chief Financial Officer (CFO). The Commission currently is
recruiting the CFO, and once hired, the Commission will transfer the agency’s financial, budget,
procurement, and internal control functions to the new office. The Commission expects the CFO
to hire or train staff with requisite high-level analytical and communication skills.

The Commission must transform the current approach to financial management from an
accounting exercise to a process that provides transparency and accountability in the formulation,
execution, performance, and management of agency budgetary resources. The new office will
provide managers with access to timely, reliable, and practical information concerning the
financial affairs of the agency to assist managers in program planning and decision-making.




                                                2
3.     Information Technology Security

Information technology (IT) is integral to the Commission’s operations. In order to address the
deficiencies identified, the Commission has focused the Chief Information Officer’s (CIO)
priorities on risk assessment of the Commission’s information security operations.

The Report notes that the Commission has not completed final action on two recommendations
dating back to 2005 concerning the Commission’s plans for continuity of operations (COOP).
The Commission recognizes that the agency currently lacks the resources to ensure continuity of
IT operations if a disaster were to occur. The Commission’s CIO has developed plans and has
begun to implement actions necessary to achieve robust remote functionality. During the
reporting period, the Commission completed final action on a third recommendation dating back
to 2005. In the next few months, the agency will significantly expand its bandwidth capability.
Over the next year, the agency will (1) implement a high-bandwidth network to support offsite
COOP requirements, (2) install hardware and software infrastructure sufficient to provide COOP
capabilities for all mission-critical applications at a secondary data center, and (3) implement and
test all mission-critical applications from the secondary site. With these efforts, the mission of
the agency should continue in the event of a disaster or systems problems at the agency’s
headquarters.

Actions on Inspector General Recommendations

The Inspector General issued eight reports with a total of 53 recommendations during this
reporting period. For two of the reports containing 11 recommendations, management decisions
were due during the reporting period. The Commission made management decisions on these 11
recommendations. The Inspector General issued six reports with 42 recommendations during
the last month of the reporting period. The management decisions were not due for these 42
recommendations until after the reporting period had closed. Management issued its decisions to
address many of these recommendations in the intervening period and is working with the
Inspector General to address the remaining ones. The Commission made management decisions
for all recommendations made in prior periods. The Commission is on schedule to complete
Final action on the two recommendations related to COOP planning discussed in section 3 above
and seven other recommendations. The statistical tables required under the IG Act are included
as Appendix A to this report.

Investigations and Inquiries

During the reporting period, the Inspector General referred to the Commission a matter related to
unprofessional behavior, violation of standards of ethical conduct and misuse of position by an
employee of the agency. The Commission quickly resolved the issue. While the Commission
appreciates that the Inspector General identified the problem and referred the matter for
management to resolve, the issue highlights the need for a stronger system of internal control.
Such a system should enable the Commission to identify this type of issue at an earlier stage.




                                                 3
Actions on External Reviews

During the reporting period, the Commission made progress addressing recommendations from
five previous external reviews conducted by different oversight agencies. These reviews
included an audit by the U.S. Government Accountability Office (GAO) on the role of the
Inspector General at the Commission, a review by the U.S. Equal Employment Opportunity
Commission (EEOC) of the Commission’s EEO program, and three reviews by the Office of
Personnel Management (OPM) of (1) delegated examining authority, (2) human resources, and
(3) personal security and suitability. During the reporting period, the Commission made
management decisions addressing both the OPM delegated examining authority and EEOC
recommendations. The Commission completed final action on the remaining recommendations
for both the GAO audit concerning the Inspector General and the OPM review concerning
personal security and suitability.



Deanna Tanner Okun
Chairman




                                            4
     UNITED STATES INTERNATIONAL TRADE COMMISSION

                                WASHINGTON, DC 20436


October 31, 2011                                                          OIG-JJ-022

Commissioners:

Attached is the Semiannual Report summarizing the activities of the Office of Inspector
General (OIG) for the period April 1, 2011 to September 30, 2011.

During this period, we issued eight reports and made 53 recommendations to promote the
efficiency, effectiveness, and integrity of the Commission’s operations. We also issued
an annual plan that identified 16 areas for review in fiscal year 2012.

I would like to thank you for your commitment to strengthening the operations of the
Commission and supporting the work of my office. During this reporting period, the
Commission completed final action on 16 Inspector General recommendations and 10
recommendations made by external oversight organizations.




Philip M. Heneghan
Inspector General
                    U.S. International Trade Commission
                                 Inspector General Semiannual Report


                                          TABLE OF CONTENTS


Office of Inspector General.............................................................................................. 1

Semiannual Report Requirements .................................................................................. 1

Top Management and Performance Challenges............................................................ 1
  1. Internal Control.......................................................................................................... 2
  2. Financial Management............................................................................................... 2
  3. Information Technology Security .............................................................................. 3

Inspector General Reports Issued this Period................................................................ 4

Audit Reports Issued this Period..................................................................................... 4
  Audit of Log Management, OIG-AR-11-10 ................................................................... 5
  Audit of Account Management, OIG-AR-11-11 ............................................................ 5
  Audit of Continuous Monitoring, OIG-AR-11-15.......................................................... 6
  Audit of Incident Management, OIG-AR-11-16 ............................................................ 6
  Audit of Patch Management, OIG-AR-11-17................................................................. 7

Inspection Reports Issued this Period............................................................................. 7
  Inspection of Physical Security, OIG-AR-11-12 ............................................................ 7

Evaluation Reports Issued this Period............................................................................ 8
  Evaluation of 337 Pre-Filing & Pre-Institution, OIG-AR-11-13.................................... 8
  Evaluation of Sunset Review Adequacy Phase, OIG-AR-11-14.................................... 9

Significant Recommendations from Prior Periods ........................................................ 9

Status of Actions Related to External Reviews Completed During Prior Periods ... 11
  Government Accountability Office (GAO) – Review of Inspector General Oversight of
  the Commission ............................................................................................................ 11
  Office of Personnel Management – Delegated Examining Operations ........................ 12
  U.S. Equal Employment Opportunity Commission – EEO Program Review.............. 12
  Office of Personnel Management – Human Resources Review ................................... 13
  Office of Personnel Management – Personnel Security and Suitability Program ........ 13

Federal Financial Management Improvement Act Reporting ................................... 14

Peer Review ..................................................................................................................... 14

Tables
  Table 1: Reporting Requirements Index ...................................................................... iii
  Table 2: Management and Performance Challenges ..................................................... 2

                                                                 i
                              Report Period: April 1, 2011 through September 30, 2011
                U.S. International Trade Commission
                             Inspector General Semiannual Report

   Table 3:   Reports by Subject Matter ............................................................................... 4
   Table 4:   Significant Recommendations from Prior Reports........................................ 15
   Table 5:   Reports with Questioned or Unsupported Costs............................................ 15
   Table 6:   Reports with Recommendations that Funds be Put to Better Use ................. 16
   Table 7:   Reports With Final Action Completed During This Reporting Period ......... 17
   Table 8:   Status of Reports Issued Without Final Action ............................................. 18

Appendices
  Appendix A: Chairman’s Statistical Tables............................................................... A-1




                                                          ii
                          Report Period: April 1, 2011 through September 30, 2011
          U.S. International Trade Commission
                     Inspector General Semiannual Report

                         Table 1: Reporting Requirements Index



                          Reporting Requirements Index

   IG Act                                  Description                        Page
Section 4(a)(2)       Review of Legislation                                   None
                      Description of Significant Problems, Abuses, and
Section 5(a)(1)                                                                1-3
                      Deficiencies
                      Description of Recommendations for Corrective
Section 5(a)(2)       Action with Respect to Significant Problems, Abuses,     4-9
                      and Deficiencies
                      Significant Recommendations From Prior Reports on
Section 5(a)(3)                                                              9-10, 15
                      Which Corrective Action Has Not Been Completed
                      A Summary of Matters Referred to Prosecuting
Section 5(a)(4)                                                               None
                      Authorities
                      Summary of Instances Where Information or
Section 5(a)(5)                                                               None
                      Assistance was Unreasonably Refused
                      Listing by Subject Matter of each Report Issued
Section 5(a)(6)                                                                 4
                      during this Reporting Period
Section 5(a)(7)       Summary of Significant Reports                           4-9
                      Statistical Table showing Questioned and
Section 5(a)(8)                                                                15
                      Unsupported Costs
                      Statistical Table showing Recommendations Where
Section 5(a)(9)                                                                16
                      Funds Could be Put to Better Use
                      Summary of Audit Reports Issued Before the Start of
Section 5(a)(10)      the Reporting Period for Which no Management            None
                      Decision Has Been Made
                      Description of Any Significant Revised Management
Section 5(a)(11)                                                              None
                      Decisions
                      Information Concerning any Significant Management
Section 5(a)(12)
                      Decision with Which the Inspector General is in         None
                      Disagreement
Section 5(a)(13)      Information described under section 5(b) of FFMIA        14
                      Results of Peer Review Completed During This
Section 5(a)(14)                                                               14
                      Period or Date of Last Peer Review
                      List of Any Outstanding Recommendations From
Section 5(a)(15)                                                               14
                      Peer Review
                      List of any Peer Reviews Conducted of Another
Section 5(a)(16)                                                               14
                      Office of Inspector General During this Period




                                             iii
                   Report Period: April 1, 2011 through September 30, 2011
              U.S. International Trade Commission
                       Inspector General Semiannual Report


                          Office of Inspector General
The U.S. International Trade Commission established the Office of Inspector General
pursuant to the 1988 amendments to the Inspector General Act (IG Act). The Inspector
General provides audit, evaluation, inspection, and investigative services covering all
Commission programs and operations. The mission of the Inspector General is to
promote and preserve the effectiveness, efficiency, and integrity of the Commission. The
Office of Inspector General’s activities are planned and conducted based on requirements
of laws and regulations, requests from management officials, allegations received from
Commission personnel and other sources, and the Office of Inspector General’s initiative.



                     Semiannual Report Requirements
The IG Act requires each Inspector General to prepare a Semiannual Report that
summarizes the activities of the office. As such, this report covers the period from April
1, 2011 through September 30, 2011. The 17 requirements, shown in Table 1, are
specified in the IG Act and must be included in the report. The layout of this Semiannual
Report is described in the next paragraph.

This Semiannual Report starts with a description of the Management Challenges Report,
OIG-MR-09-11, which identified the three most significant management challenges
facing the Commission. It then summarizes the results of the remaining eight reports
issued during this period, describes significant recommendations from prior reports
which have not received corrective action, and summarizes the hotline and investigation
activities of the Inspector General. The next section provides a summary of the reviews
conducted by external parties related to the Commission and the Office of Inspector
General along with the status of recommendations issued. The last sections supply
information on other reportable activities such as participation in the Council on
Inspectors General for Integrity and Efficiency, and compliance activities. Additional
tables at the end of the report detail statistics on Office of Inspector General reports and
recommendations.



           Top Management and Performance Challenges
The Inspector General is required by statute to identify the most significant management
and performance challenges facing the Commission in the coming year. The Inspector
General provided the Commission with a report, OIG-MR-09-11, on October 15, 2010.
The report identified the challenges based on information learned from audit and
inspection work, a general knowledge of the Commission’s programs and activities, and

                                               1
                     Report Period: April 1, 2011 through September 30, 2011
              U.S. International Trade Commission
                        Inspector General Semiannual Report

input from management regarding challenges facing the agency and efforts the agency
has taken to address them. The management and performance challenges identified by
the Office of Inspector General include the three areas identified in Table 2.


                      Table 2: Management and Performance Challenges

                     Management and Performance Challenges
               1. Internal Control
               2. Financial Management
               3. Information Technology Security



1. Internal Control
Commission management is responsible for establishing and maintaining a system of
internal controls that ensure effective and efficient operations, reliable financial reporting,
and compliance with laws and regulations. Reviews performed over the past year have
identified weak or non-existent internal controls. The most significant weaknesses
identified were noncompliance with the Federal Manager’s Financial Integrity Act and
OMB Circular A-123, Management’s Responsibility for Internal Control.

Although initially identified in the financial management and procurement areas, the
internal control weaknesses appear to be a systemic problem throughout the Commission.
The Commission has a long standing culture of undocumented and informal processes
used to complete daily tasks. Documented and consistent processes and procedures are
necessary to provide a reasonable level of assurance that the organization is operating in
an efficient and cost-effective manner. The most significant challenge will be managing
the cultural changes associated with implementing new systems of internal control
throughout the Commission.


2. Financial Management

As a steward of taxpayer dollars, the Commission is responsible for implementing sound
financial management practices. The Commission has struggled to assure the accuracy of
the annual financial statements and does not have the technical system expertise to
provide managers with timely, reliable, and practical financial information. Deficiencies
in financial management have been previously reported; however, efforts to overcome the
problems have not been fully successful.



                                               2
                     Report Period: April 1, 2011 through September 30, 2011
              U.S. International Trade Commission
                       Inspector General Semiannual Report

The Commission lacks personnel with the necessary technical or analytical skills required
to provide the appropriate reports and documentation to support the annual financial
statement reporting. In addition, the lack of timely and practical financial reporting
makes it difficult for managers to effectively monitor the expenditure of funds, evaluate
program performance, and make informed financial decisions about their programs and
operations.

Budget formulation, budget execution, procurement, accounting, and financial reporting
should be fully integrated with agency operations and include transparent processes that
promote accountability and deter potential fraud, waste, and abuse of agency resources.
The management challenge will be to transform the current approach to financial
management from an accounting exercise to an end-to-end process that provides
transparency and accountability of agency budgetary resources.


3. Information Technology Security
In order to fulfill its core strategic goals, the public and, more specifically, parties
appearing before the Commission must trust the Commission to protect their confidential
and proprietary business information. In the process of conducting investigations, the
Commission regularly collects and uses sensitive confidential and proprietary business
data, including company-specific financial, production, and trade data. The Commission
must ensure that proper security controls are in place to protect and secure sensitive data.
Continuously evolving security threats, the sensitive nature of the Commission’s
investigations, and the use and storage of data on corporate financial performance
indicators make the Commission’s information systems high risk targets for attack. As a
result, the Commission must continue to refine and improve its information security
program.

Use of information technology is an integral component of the Commission’s day-to-day
operations, including communications with the public. The Commission currently does
not have a disaster contingency plan in place to restore data and operations if an event
were to occur that disabled the network. Without a plan, the Commission may not be
able to restore core business functions or minimize the disruption of services. These
weaknesses were identified in a previous audit report and the recommendations remain
outstanding. This management challenge will require dedicated funding, skilled
resources, and time to resolve. The Chief Information Officer has also identified this as
the most critical risk facing the Commission.




                                               3
                     Report Period: April 1, 2011 through September 30, 2011
                U.S. International Trade Commission
                           Inspector General Semiannual Report


               Inspector General Reports Issued this Period
 The Inspector General issued eight reports with a total of 53 recommendations during this
 reporting period. For two of the reports containing 11 recommendations, management
 decisions were due during the reporting period. The Commission made management
 decisions on these 11 recommendations, and the Inspector General agreed with all the
 management decisions.

 The Inspector General issued six reports with 42 recommendations during the last month
 of the reporting period. The management decisions were not due for these 42
 recommendations until after the reporting period had closed. A listing of each report by
 subject matter is provided in Table 3 below. The key findings of each report are
 described in the sections that follow.

                                 Table 3: Reports by Subject Matter

                                   Reports by Subject Matter
  Subject           Report                                            Date           Number of
                                          Report Title
  Matter            Number                                           Issued       Recommendations
IT Security      OIG-AR-11-10   Audit of Log Management           04/28/2011                3
                                Audit of Account
IT Security                                                       06/29/2011                8
                  OIG-AR-11-11  Management
                                Audit of Continuous
IT Security                                                       09/28/2011                4
                  OIG-AR-11-15  Monitoring
                                Audit of Incident
IT Security                                                       09/29/2011                8
                  OIG-AR-11-16  Management
IT Security       OIG-AR-11-17  Audit of Patch Management         09/30/2011                4
Physical                        Inspection of Physical
                                                                  09/09/2011               22
Security          OIG-SP-11-12  Security
                                Evaluation of 337 Pre-Filing
Operations                                                        09/12/2011                0
                  OIG-ER-11-13  and Pre-Institution
                                Evaluation of Sunset Review
Operations                                                        09/14/2011                4
                  OIG-ER-11-14  Adequacy Phase
Total Recommendations Issued This Reporting Period                                         53
NOTE: There were no questioned costs, unsupported costs or funds identified that could be put to better
use in any of these reports.




                          Audit Reports Issued this Period
 The Inspector General issued five audit reports during this period. This section provides
 the report title, results, and a brief summary of each audit report.



                                                    4
                        Report Period: April 1, 2011 through September 30, 2011
             U.S. International Trade Commission
                       Inspector General Semiannual Report

Audit of Log Management, OIG-AR-11-10

RESULT: The audit determined that the Commission had not configured its system logs
in a way that adds value to the operation of ITCNet.

We conducted an audit to evaluate whether the Commission’s system logs were
configured and managed in a way that added value to the operation of ITCNet. A log
management program adds value by collecting log data from all infrastructure devices,
monitoring minor and severe incidents, storing aggregate data, and reporting instantly to
the responsible group for corrective action.

We found that the Commission possessed a number of tools, but lacked a coherent log
management program. The audit identified three problem areas related to monitoring the
entire ITCNet infrastructure, using log data effectively to prioritize resources and
effectively resolve system errors, and synchronizing all the clocks on the ITCNet devices
in order to understand and correlate events taking place on the network.

Based on the results of the draft report, the CIO resolved the issues with clock
synchronization and began increasing the number of infrastructure devices being
monitored. The Chairman acknowledged the efforts of the CIO and agreed the remaining
deficiencies identified in the report must be corrected to improve the effectiveness of the
log management program. Final action was completed on all recommendations during
this reporting period.

Audit of Account Management, OIG-AR-11-11

RESULT: The audit determined that the Commission effectively limited network access.

We audited the enabled accounts on ITCNet, accounts for a range of infrastructure
devices, and permissions for domain users of shared drives to determine if the
Commission prevented unauthorized access to the network. The audit found that the
Commission was effective in preventing unauthorized access by:

   x   Immediately disabling accounts when users are no longer authorized to access the
       network;
   x   Requiring the use of a hardware device, a PIN, an active user account and a strong
       password to access the network externally; and
   x   Requiring physical identification, an active user account, and a password to
       access the network internally.

Although the Commission effectively prevents unauthorized network access, the audit
identified three areas where the Commission can further improve its security controls for


                                               5
                     Report Period: April 1, 2011 through September 30, 2011
             U.S. International Trade Commission
                      Inspector General Semiannual Report

authorized users to the network. The Chairman agreed with our assessment and
recognized that the Commission can further enhance its security by implementing the
recommendations detailed in the three areas for improvement.

Audit of Continuous Monitoring, OIG-AR-11-15

RESULT: The audit determined that the Commission had not implemented an effective
or comprehensive continuous monitoring system.

We conducted an audit to determine if the Commission met the continuous monitoring
requirements instituted by the Office of Management and Budget (OMB). The audit
reviewed eight specific functions the Commission is mandated to perform to implement
OMB’s continuous monitoring requirements.

We found that the Commission had not implemented an executive dashboard that
presents real-time summary data, and that the Commission did not have the capability to
provide automated data feeds to OMB’s web reporting portal.

We issued four recommendations to address the two problem areas identified. The
Commission agreed with the findings and is committed to building a robust IT security
program that complies actionable information and complies with OMB Guidance.

Audit of Incident Management, OIG-AR-11-16

RESULT: The audit found that the Commission did not have an incident management
program capable of providing senior management with detailed, actionable information
regarding security incidents.

We conducted an audit of the Commission’s incident response program to determine
whether the program effectively provided data to senior management. We found that the
existing incident response document was largely boilerplate and did not provide an
actionable plan to either detect or respond to security incidents. As a result, incidents
were being handled on an ad-hoc basis and the Commission did not have a method to use
the knowledge gained to avoid similar incidents in the future, or increase the speed and
effectiveness of eradicating intrusions once detected.

We issued eight recommendations to address the two problem areas identified in the
audit. The Chairman agreed with the assessment and was developing management
decisions to address the recommendations at the time the reporting period closed.




                                              6
                    Report Period: April 1, 2011 through September 30, 2011
             U.S. International Trade Commission
                      Inspector General Semiannual Report

Audit of Patch Management, OIG-AR-11-17

RESULT: The audit found that the Commission had implemented an effective,
comprehensive system to maintain patch levels.

We conducted an audit of all systems on all networks managed by the Commission to
determine if the Commission had implemented an effective patch management system.
We initially found 868 missing high severity patches from the Commission’s 455
workstations, which averaged to 1.9 per workstation. Upon further review, we
determined seven workstations used for financial reporting exhibited an average of 16
missing patches per workstation, which significantly skewed the total patching score.
The missing patches were due to the use of unpatched systems required to maintain
connectivity to the National Business Center to perform financial management functions.

We also reviewed the patch status of 36 servers and found that 34 of them were missing
an average of 5.9 packages and the remaining two were missing 58 and 276 packages.
We attributed this disparity to individual operational groups implementing different
server patching standards.

Overall, the Commission has made commendable progress in implementing an effective
patch management program. We identified two areas that would further support the
Commission’s efforts to improve its patching capabilities.




                  Inspection Reports Issued this Period
The Inspector General issued one inspection report during this reporting period. The
result of the inspection and a summary of the report is described below.

Inspection of Physical Security, OIG-AR-11-12

RESULT: The inspection identified weaknesses in all six of the physical security areas
reviewed, including two weaknesses from past inspections that remain unresolved.

We conducted an inspection to determine whether the physical security program at
USITC is sufficient as determined by (1) statutory and regulatory baselines and (2)
agency need. The inspection criteria used government-wide accepted best practices and
examined the following subject areas:

   x   Vehicle inspection and parking garage security;
   x   Perimeter alarm/intrusion detection system and Kastle key inventory;

                                              7
                    Report Period: April 1, 2011 through September 30, 2011
             U.S. International Trade Commission
                       Inspector General Semiannual Report


   x   Federal Protection Service (FPS) building security level determination;
   x   Physical building security in the areas of communications, stairwell, and CCTV;
   x   Liaison with local police and consistent communications with FPS; and
   x   Employee training, written procedures, and guidance.

We identified multiple weaknesses and deficiencies in each physical security subject area
reviewed, such as:

   x   lack of written procedures or guidance for the physical security program;
   x   absence of security cameras in garage area;
   x   broken and malfunctioning monitoring equipment;
   x   no system to manage distribution and rights of Kastle Key management system;
       and
   x   lack of building wide public address system for emergencies or evacuations.

In total, we issued 22 recommendations to address the weaknesses identified from the
inspection. The Commission agreed with the assessment and was developing
management decisions to address the recommendations at the time the reporting period
closed.



                  Evaluation Reports Issued this Period
The Inspector General issued two evaluation reports during this period. The evaluations
reviewed processes within two of the strategic operation areas of the Commission. The
results and summary information for each evaluation report are described below.

Evaluation of 337 Pre-Filing & Pre-Institution, OIG-AR-11-13

RESULT: The evaluation determined that the pre-filing and pre-institution processes are
an efficient use of Commission resources.

Section 337 of the Tariff Act of 1930, as amended, authorizes the Commission to
investigate alleged unfair methods of competition and unfair acts in the importation and
sale of articles in the United States. The pre-filing and pre-institution phases provide
complainants with an opportunity to have their draft complaint reviewed for sufficiency
and compliance with the Commission’s rules.

We conducted a review of the pre-filing and pre-institution functions and then evaluated
the staff costs associated with each process. Both processes are designed to find
insufficiencies with complaints that, when resolved, will make the institution process less

                                               8
                     Report Period: April 1, 2011 through September 30, 2011
             U.S. International Trade Commission
                       Inspector General Semiannual Report

arduous for both parties and may result in decreased requests from complainants to file
extensions. The associated staff costs were minimal and, therefore determined to be an
effective use of resources.

The report highlighted six areas for additional the Commission consideration. The
Commission concurred with the results of the evaluation and has agreed to consider the
areas presented in the report when they re-evaluate the 337 process.

Evaluation of Sunset Review Adequacy Phase, OIG-AR-11-14

RESULT: The evaluation determined that the Office of Investigations needs to
incorporate its checklists and templates into a fully developed procedure.
The Tariff Act of 1930, requires the Commission to perform sunset reviews of
antidumping and countervailing duty orders every five years. During the adequacy
phase, the Office of Investigations gathers information and develops an “adequacy
memorandum” that is provided to the Commissioners. The memorandum is a factual
document and offers no recommendations or opinions. The Commissioners use it to
determine whether to conduct an expedited or full review.

We evaluated completed adequacy memoranda against documentation provided by the
Office of Investigations, as well as information obtained from staff interviews. We found
that instead of a single documented procedure, the staff used a variety of checklists,
templates, and other documents. These documents were not fully inclusive of the process
and there were inconsistencies in the content and presentation of information in the final
adequacy memoranda.

We issued four recommendations to address the two problem areas identified. The
Commission acknowledged that until recently a single investigator was relied upon to
complete the adequacy phase memoranda. In order to address the risk of relying upon a
single employee, the Office will need to develop its procedures as it assigns less
experienced investigators to the adequacy phase of the five-year reviews.




         Significant Recommendations from Prior Periods
The Inspector General identified two recommendations from prior periods as significant.
The two recommendations are associated with disaster planning, testing major
applications, and having an alternate processing facility. They are significant because the
Commission may be unable to restore core business functions or minimize the disruption
of services if an event were to occur.



                                               9
                     Report Period: April 1, 2011 through September 30, 2011
             U.S. International Trade Commission
                       Inspector General Semiannual Report

The Inspector General previously reported three recommendations associated with the
disaster planning program. During this reporting period, the Commission completed final
action on one of the recommendations. A listing that identifies the remaining two
recommendations along with the report numbers has been provided in Table 4.



                          Hotline and Investigations

Investigations and Inquiries - Overview

In accordance with professional standards and guidelines, the OIG conducts
investigations and inquiries of criminal, civil, and administrative wrongdoing involving
Commission programs, operations, and personnel. Investigations may involve possible
violations of regulations regarding employee responsibilities and conduct, Federal
criminal law, and other statutes and regulations pertaining to the activities of USITC.

The OIG reviews and analyzes all complaints received to determine the appropriate
course of action. In instances where it is determined that something less than a full
investigation is appropriate, the OIG may conduct a preliminary inquiry into the
allegation. If the information obtained during the inquiry indicates that a full
investigation is warranted, the OIG will commence an investigation of the allegation.

OIG Hotline Contacts

The OIG maintains a Hotline for reporting information about suspected waste, fraud,
abuse, or mismanagement involving Commission programs or operations. Information
may be provided by telephone, fax, email, mail, or through a web-based form. Upon
request, a provider’s identity will be kept confidential. Reports may also be made
anonymously.

We receive complaints from employees, contractors, and the public that involve USITC
areas of responsibility. We examine these complaints to determine whether there is any
indication of USITC wrongdoing or misconduct. If the complaint does not relate to the
USITC, we refer the complaint to the appropriate agency for response, or close the matter
if the complaint does not have merit.

The OIG has worked to increase awareness of the Hotline throughout the Commission by
creating a series of Hotline posters and holding OIG Outreach sessions with Commission
offices.




                                              10
                    Report Period: April 1, 2011 through September 30, 2011
             U.S. International Trade Commission
                      Inspector General Semiannual Report

Investigations and Inquiries

Unprofessional Behavior, Violation of Standards of Ethical Conduct, Misuse of Position
During the reporting period, the OIG received an allegation that an employee had
demonstrated unprofessional behavior, violated the Standards of Ethical Conduct, and
misused his position. The OIG conducted an inquiry and referred the issue to
Commission management for appropriate action. The inquiry was closed during the
reporting period.




    Status of Actions Related to External Reviews Completed
                      During Prior Periods
Government Accountability Office (GAO) – Review of Inspector General Oversight
of the Commission

In October 2010, the GAO issued a report based on its review of the oversight activities
of the Inspector General at the Commission. Inspectors General are responsible for
providing independent and objective oversight; however, GAO found that the
Commission relied on acting and temporary Inspector Generals for an extended period of
time. The GAO was asked to determine (1) the extent of oversight provided by the
Commission’s Inspector General, (2) the budget and staffing resources available for
oversight, and (3) how the role of the Inspector General was addressed in the governance
of the Commission. To accomplish these objectives, the GAO reviewed Inspector
General reports and budgets for fiscal years 2005 through 2009, and relevant policies and
procedures regarding governance and accountability. The GAO also interviewed the
Chairman, Commissioners, current and former acting and temporary IGs, and office
directors.

The IG Act requires Inspectors General to provide independent audits and investigations
of the programs, offices, and activities in their respective federal entities; however,
during the five-year period reviewed, the Commission’s Inspector General conducted no
audits and had no investigative case files or investigative reports. The Inspector
General’s oversight activities consisted primarily of monitoring and reviewing the work
of independent public accountants who conducted the annual mandatory audits of the
Commission's financial statements and information security programs. The most recent
peer review (requested by the current Inspector General) of audit quality concluded that
an opinion could not be rendered on the audit organization because no audits had been
conducted by the Office of Inspector General in the past five years.




                                              11
                    Report Period: April 1, 2011 through September 30, 2011
              U.S. International Trade Commission
                       Inspector General Semiannual Report

The GAO made a recommendation to the Commission’s Inspector General to prepare a
staffing analysis as part of audit planning to determine the resources needed for effective
oversight. The GAO also made recommendations to the Chairman aimed at clarifying
and communicating the authorities and responsibilities of the Inspector General.

The Commission completed final action on the last remaining recommendation during
this reporting period.

Office of Personnel Management – Delegated Examining Operations

The Office of Personnel Management performed a review of the Commission’s delegated
competitive examining operations. The review evaluated 25 criteria to determine the
extent the Commission’s delegated examining activities met merit system principals and
applicable laws and regulations, including the Veterans Preference Act of 1944.

The Commission met the anticipated results in 15 of the assessment areas and partially
met the standards in an additional five areas. The report identified one area involving the
review of certificate documentation in which the Commission did not meet the criteria.
The remaining four assessment areas were determined to be not applicable to the
Commission.

The report identified 10 recommendations to address the six instances where the
Commission’s delegated competitive examining operations did not fully meet the
standard. The Commission has developed management decisions to address the
recommendations. Final action was not completed on any of the recommendations
during this reporting period.


U.S. Equal Employment Opportunity Commission – EEO Program Review

The Equal Employment Opportunity Commission (EEOC) performed an evaluation of
the Commission’s progress towards becoming a model Equal Employment Opportunity
(EEO) workplace. The evaluation measured whether the Commission meets the six
essential elements of a model EEO program, as defined by Title VII of the Civil Rights
Act of 1964, and Section 501 of the Rehabilitation Act of 1973, as amended.

The final report was issued on December 15, 2010, and contained eleven
recommendations to improve five of the six essential elements of a model EEO program.
The report also acknowledged that the Commission had attained maximum efficiency in
Element 5, regarding the ability to resolve most workplace issues through informal
methods. The Commission has developed management decisions to address the
recommendations identified in the report. Final action was not completed on any of the
recommendations during this reporting period.


                                               12
                     Report Period: April 1, 2011 through September 30, 2011
             U.S. International Trade Commission
                       Inspector General Semiannual Report

Office of Personnel Management – Human Resources Review

The Office of Personnel Management completed an external review of the Commission’s
human resource program on August 26, 2009. The purpose of the review was to evaluate
the human capital program at the Commission. This evaluation resulted in 83
recommendations made to the Commission to ensure compliance with laws and to
strengthen the management and administration of the Commission’s human capital
program. The Commission made management decisions to implement all of the
recommendations and in prior reporting periods completed final action on 59 of the
recommendations. During this reporting period they completed final action on seven
recommendations. The Commission is working on implementing the remaining 17
management decisions.

Office of Personnel Management – Personnel Security and Suitability Program

The Office of Personnel Management performed a review of the Commission’s Personnel
Security and Suitability Program. The review involved examining and measuring key
program areas including the position designation processes, investigation request
processes, adjudication processes, and processes supporting reform goals and reciprocity.
The final report identified 22 recommendations for the Commission. The Commission
made management decisions to implement all of the recommendations and in prior
reporting periods completed final action on 20. During this reporting period they
completed final action on the remaining two recommendations.




   Council on Inspectors General for Integrity and Efficiency
                          Activities
The Inspector General has actively participated in meetings and supported the efforts of
the Council on Inspectors General for Integrity and Efficiency (CIGIE).

The Office of the Inspector General staff have volunteered to serve as members on
various working groups and committees that address cross-cutting issues such as,
knowledge management, cloud computing, investigations, cyber security, new media,
small agencies concerns, and legislative issues.




                                              13
                    Report Period: April 1, 2011 through September 30, 2011
             U.S. International Trade Commission
                      Inspector General Semiannual Report


 Federal Financial Management Improvement Act Reporting
The IG Act and the Federal Financial Management Improvement Act of 1996 (FFMIA)
require the Inspectors General of certain agencies to report “instances and reasons” when
the agency has not met intermediate target dates established in a remediation plan to
bring the agency’s financial management system into substantial compliance with the
FFMIA. The Commission is not subject to the FFMIA; however, it voluntarily seeks to
comply with most of its requirements. During this reporting period, there were no events
giving rise to a duty to report under FFMIA.



                                     Peer Review
The last peer review of the Office of Inspector General was for the period ending
September 30, 2009 and the report was issued on May 27, 2010. All recommendations
made during the review were implemented by September 16, 2010. The full report is
posted on our web site.

The next audit peer review has been scheduled by CIGIE and will cover the period
through September 2012.




                                              14
                    Report Period: April 1, 2011 through September 30, 2011
               U.S. International Trade Commission
                          Inspector General Semiannual Report

Table 4: Prior Significant Recommendations Where Corrective Action Has Not Been Completed

                        Prior Significant Recommendations
                  Where Corrective Action Has Not Been Completed
    Report Number                                      Recommendation
                         Ensure major applications and general support system contingency plans
    OIG-AR-04-05
                         are updated and tested in accordance with NIST SP-800-34 guidelines.
                         With respect to each mission-critical application and general support
                         system, determine if an alternate processing facility is necessary and
    OIG-AR-04-05         identify the respective facility. At this alternate facility, contingency
                         plans should be tested and arrangements made for its use in the event of a
                         major interruption or disaster.


                     Table 5: Reports with Questions and Unsupported Costs

                   Reports with Questioned and Unsupported Costs
                                   Section 5(a)8
                                               Number of          Questioned         Unsupported
              Description
                                                Reports             Costs               Costs
Reports for which no management
decision has been made by the
                                                       1                $0                   $0
commencement of the reporting
period.
Reports issued during the reporting
                                                       8                $0                   $0
period.
                             Subtotals                                  $0                   $0
Reports for which a management
decision was made during the                           41               $0                   $0
reporting period.
    x Dollar value of disallowed
                                                       0                $0                   $0
        costs.
    x Dollar value of allowed costs.                   0                $0                   $0
Reports for which no management
decision has been made by the end of                   52               $0                   $0
the reporting period.




1
  Management decisions were received in response to the FOIA report, OIG-AR-11-08, which was issued
during the last reporting period; three reports were issued during this reporting period on which
management made decisions; and one report without recommendations.
2
  All five of these reports were issued during the month of September and management decisions were not
due until after this reporting period closed.

                                                  15
                        Report Period: April 1, 2011 through September 30, 2011
           U.S. International Trade Commission
                     Inspector General Semiannual Report

         Table 6: Reports w/ Recommendations that Funds be Put to Better Use

     Reports with Recommendations that Funds be Put to Better Use
                           Section 5(a)9
                                                          Number of         Funds Put to
                    Description
                                                           Reports           Better Use
Reports for which no management decision has been
                                                                 1               $0
made by the commencement of the reporting period.
Reports issued during the reporting period.                      8               $0
                                            Subtotals                            $0
Reports for which a management decision was made
                                                                 4
during the reporting period.
    x Dollar value of recommendations agreed to by
                                                                                 $0
        management.
    x Dollar value of recommendations not agreed
                                                                                 $0
        to by management.
Reports for which no management decision has been
                                                                 5               $0
made by the end of the reporting period.
                                            Subtotals                            $0




                                            16
                  Report Period: April 1, 2011 through September 30, 2011
               U.S. International Trade Commission
                          Inspector General Semiannual Report

          Table 7: Reports With Final Action Completed During this Reporting Period

                          Reports With Final Action Completed
                             During this Reporting Period
                           Reports Issued This Reporting Period
                                                              Final Action       Final Action
                                     # of        Mgt.
           Report Title                                       Complete in       Complete This
                                     Recs.     Decisions
                                                              Prior Periods         Period
  Audit of Log Management,
1                                      3             3               0                3
  OIG-AR-11-10
  Evaluation of 337 Pre-filing &
2                                      0             0               0                0
  Pre-institution, OIG-ER-11-13
                           Totals      3             3               0                3
                                    Prior Reporting Periods
                                                              Final Action       Final Action
                                     # of        Mgt.
           Report Title                                       Complete in       Complete This
                                     Recs.     Decisions
                                                              Prior Periods         Period
1 FOIA, OIG-AR-11-08                   5             5              0                  5
  Report on Internal Control,
2                                     20             20             15                5
  OIG-AR-11-03
  Management Letter 2010
3 Financial Statement,                25             25             23                2
  OIG-ML-11-06
                          Totals      50             50             38                12




                                                17
                      Report Period: April 1, 2011 through September 30, 2011
                U.S. International Trade Commission
                            Inspector General Semiannual Report

                       Table 8: Status of Reports Issued Without Final Action

                     Status of Reports Issued Without Final Action
                                       This Reporting Period
                                                                Decisions
                                                                                   Final      Action
                                        # of       Mgt.            IG
             Report Title                                                          Action      Not
                                        Recs.    Decisions      Disagrees
                                                                                  Complete   Complete
                                                                  With
    Audit of Account Management,
1                                         8            8            0                0          8
    OIG-AR-11-11
    Inspection of Physical Security,
2                                         22           0            0                0          22
    OIG-SP-11-12
    Evaluation of Sunset Review
3   Adequacy Phase,                       4            0            0                0          4
    OIG-ER-11-14
    Audit of Continuous
4                                         4            0            0                0          4
    Monitoring, OIG-AR-11-15
    Audit of Incident Management,
5                                         8            0            0                0          8
    OIG-AR-11-16
    Audit of Patch Management,
6                                         4            0            0                0          4
    OIG-AR-11-17
            Subtotal Current Period       50           8            0                0          50
                                       Prior Reporting Periods
                                                                  Final            Final
                                                                 Action            Action     Action
                                        # of       Mgt.
             Report Title                                       Complete          Complete     Not
                                        Recs.    Decisions
                                                                  Prior             This     Complete
                                                                 Periods           Period
    FISMA FY 2004 Performance
1                                         14           14           11               1          2
    Audit, OIG-AR-04-05
    Report on Compliance with
2   Laws and Regulations,                 2            2            1                0          1
    OIG-AR-11-04
3   EDIS Security, OIG-AR-11-07           8            8            2                0          6
              Subtotal Prior Period       24           24           14               1          9




                                                  18
                        Report Period: April 1, 2011 through September 30, 2011
             U.S. International Trade Commission
                                        Appendix A

Appendix A: Chairman’s Statistical Tables
                           Table A: Reports with Disallowed Costs


  Total Number of Reports and the Dollar Value of Disallowed Costs
                                                            Number
                                                                        Dollar Value of
                     Description                              of
                                                                        Disallowed Costs
                                                            Reports
 Reports issued during the period.                              8              $0
 Reports for which final action had not been taken by
                                                                6              $0
 the commencement of the reporting period.
 Reports on which management decisions were made
                                                                4              $0
 during the reporting period.
   Reports for which final action was taken during the
                                                                5              $0
                    reporting period.
     x Dollar value of disallowed costs, recovered                             $0
         by management.
     x Dollar value of disallowed costs written off                            $0
         by management.
 Reports for which no final action has been taken by
                                                                9              $0
 the end of the reporting period.

           Table B: Reports with Recommendations that Funds be Put to Better Use


    Reports with Recommendations that Funds be Put to Better Use
                                                             Number
                                                                          Funds Put to
                     Description                               of
                                                                           Better Use
                                                             Reports
 Reports for which final action had not been taken by the
                                                                    6        $150,000
 commencement of the reporting period.
 Reports on which management decisions were made
                                                                    4           $0
 during the reporting period.
 Reports for which final action was taken during the
                                                                    5           $0
 reporting period including:
     x Dollar value of recommendations that were                                $0
         actually completed.
     x Dollar value of recommendations that
         management has subsequently concluded                                  $0
         should not or could not be completed.
 Reports for which no final action has been taken by the
                                                                    9        $150,000
 end of the reporting period.


                                             A-1

                        Appendix A: Chairman’s Statistical Tables
         U.S. International Trade Commission
                                Appendix A

         Table C: Prior Year Management Decisions Without Final Action

Prior Year Audit Reports On Which Management Decisions Have Been
             Made but Final Action has Not Been Taken
                                              Funds Put        Reason Final
                             Disallowed
 Audit Report    Date Issued                   to Better      Action has Not
                               Costs
                                                  Use          Been Taken
                                                            Provided in Section 3
OIG-AR-04-05     09/27/2005         $0            $0         of the Chairman’s
                                                                    letter




                                     A-2

                 Appendix A: Chairman’s Statistical Tables
“Thacher’s Calculating Instrument” developed by Edwin Thacher in the late 1870s. It is a cylindrical, rotating slide
rule able to perform complex mathematical calculations involving roots and powers quickly. The instrument was used
by architects, engineers, and actuaries as a measuring device.
